Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  RESTRAINTS AND SECLUSION

            State Policies
                  for
         Psychiatric Hospitals




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 2000
                      OEI-04-99-00150
                        OFFICE OF INSPECTOR GENERAL

Public Law 95-452, as amended by Public Law 100-504, mandated the mission of the Office of
Inspector General. That mission is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems, and recommends legislative, regulatory, and operational approaches
to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections is one of several components of the Office of Inspector
General. It conducts short-term management and program evaluations (called inspections) that
focus on issues of concern to the Department, the Congress, and the public. Inspection reports
provide findings and recommendations on the efficiency, vulnerability, and effectiveness of
departmental programs.

OEI's Atlanta Regional Office prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General, and Christopher H. Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

       Dwayne Grant, Team Leader                    Seth Rosenblatt, Program Analyst
       Greg Jones, Program Analyst                  Elise Stein, Program Specialist
       Lisa Keating, Program Analyst                Glen Thomas, Program Analyst
       Alan Levine, Program Specialist              Joe Townsel, Program Analyst
       Graham Rawsthorn, Program Analyst




To obtain copies of this report, please call the Atlanta Regional Office at 404-562-7723. Reports
are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




  RESTRAINTS AND SECLUSION

            State Policies
                  for
         Psychiatric Hospitals




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 2000
                      OEI-04-99-00150
                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS


         Initiating Restraints or Seclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


         Obtaining Physician Orders . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


         Limiting Duration of Physician Orders . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         Monitoring Patients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDIX


         Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


                   HCFA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


                   SAMHSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

                                        EXECUTIVE SUMMARY

PURPOSE

          To describe State policies for restraints and seclusion in psychiatric hospitals.

BACKGROUND

          Over five million people experience severe mental illnesses each year. In 1998, Medicare
          and Medicaid paid almost $6 billion to provide mental health care to over 500,000
          beneficiaries in psychiatric hospitals. Mental health care may be provided in publicly
          (State) or privately owned hospitals. During hospitalization, persons with mental illness
          may be placed in restraints or seclusion.

          The use of restraints and seclusion may be appropriate in some circumstances, but in
          others it may be inappropriate and abusive. In recent years, various reports have linked
          numerous deaths to inappropriate use of restraints and seclusion. Mental health advocates
          have expressed concern that hospitals are too quick to restrain or seclude patients, do not
          properly monitor them, and keep them restrained or secluded too long.

          Such reports raised concern in the Congress, Department of Health and Human Services,
          and States on policies, standards and oversight for using restraints and seclusion. In
          response, the Health Care Financing Administration issued new Patients’ Rights Condition
          of Participation regulations for hospitals, effective in August 1999. The new standards
          allow using restraints and seclusion in emergency situations, but only when less restrictive
          interventions are determined ineffective for ensuring the safety of patients and others.

FINDINGS

          Many State policies already met some of the new Patients’ Rights Condition of
          Participation standards. However, other State policies for both public and private
          psychiatric hospitals did not. State policies for use of restraints and seclusion in private
          psychiatric hospitals more frequently fell short of the new standards.

          Initiating Restraints and Seclusion

          The Health Care Financing Administration’s new Patients’ Rights Condition of
          Participation requires all staff with direct patient contact to have ongoing education and
          training in the appropriate and safe use of restraints and seclusion, and in alternative
          methods to avoid the use of restraints and seclusion.

          State policies generally specify who can initiate a restraint or seclusion. In over 74
          percent of the States only a doctor or nurse had authority to initiate a restraint or seclusion

Restraints and Seclusion: Policies for Psychiatric Hospitals   1                              OEI-04-99-00150
          in public psychiatric hospitals. Likewise, 73 percent of the States have the same
          restriction for private psychiatric hospitals. However, hospital staff said that in an
          emergency it is often necessary for the closest employee to restrain a patient until other
          trained staff arrive.

          Physician Orders

          The Health Care Financing Administration’s new Patients’ Rights Condition of
          Participation requires that a physician or other licensed independent practitioner “see and
          evaluate” the need for restraint and seclusion within 1 hour after the initiation of this
          intervention.

          Policies for 78 percent of States require a physician order within 1 hour of initiating a
          restraint or seclusion in public psychiatric hospitals. Likewise, 60 percent did so for
          private psychiatric hospitals. However, most State policies did not specify a “see and
          evaluate” requirement. To illustrate, only 2 States required their public hospitals to meet
          the “see and evaluate” requirement. None did so for private hospitals. The other States
          allowed physician orders for restraint and seclusion to be given over the telephone.

          In their response to the Health Care Financing Administration’s new Patients’ Rights
          Condition of Participation interim final rule, private associations for physicians and
          hospitals voiced opposition to the new 1 hour “see and evaluate” requirement. They said
          it will be costly and difficult to implement. They also believe the requirement
          inappropriately dictates medical practice.

          Time Limits

          The Health Care Financing Administration’s new Patients’ Rights Condition of
          Participation limits duration of physician and licensed independent practitioner orders for
          restraints and seclusion to 4 hours for adults. However, only 43 percent of States had a
          limit of 4 hours for public psychiatric hospitals. Only 9 percent of the States set such a
          limit for private psychiatric hospitals.

          Further, only 20 percent of the State policies for physician orders in public psychiatric
          hospitals met the Health Care Financing Administration’s new Patients’ Rights Condition
          of Participation standard of a 2 hour time limit for adolescents, and a 1 hour limit for
          children. None of the States had similar standards for adolescents and children in private
          psychiatric hospitals.

          Patient Monitoring

          The Health Care Financing Administration’s new Patients’ Rights Condition of
          Participation requires continual (close, recurring) monitoring of patients that are either
          restrained or secluded. Many States met this standard. Eighty five percent of State
          policies for public psychiatric hospitals required monitoring every 15 minutes or less.
          Only 48 percent of the States required such monitoring in private psychiatric hospitals.

Restraints and Seclusion: Policies for Psychiatric Hospitals   2                           OEI-04-99-00150
          A few States had higher standards for patient monitoring. Four States required
          continuous (constant) monitoring in public psychiatric hospitals, while one State did so for
          private psychiatric hospitals.

RECOMMENDATION

          We recommend that HCFA work aggressively with States and accreditation
          organizations to quickly raise psychiatric hospital compliance with the new Patients’
          Rights Condition of Participation where necessary. Particular attention should be
          given to policies for private psychiatric hospitals.


AGENCY COMMENTS

          Both the Health Care Financing Administration and the Substance Abuse and Mental
          Health Services Administration commented on our draft report. Both concurred with our
          recommendation.

          The Health Care Financing Administration has already initiated several activities that we
          believe will increase compliance with the new Patients’ Rights Condition of Participation.
          For example, HCFA initiated efforts to educate key players such as State agencies,
          providers, accrediting organizations, and protection and advocacy groups on expected
          changes in treatment policies and procedures. Further, HCFA has initiated a training
          program for State and HCFA regional surveyors on the new Patients’ Rights Condition of
          Participation.

          The Substance Abuse and Mental Health Services Administration noted that our study is
          beneficial in that it provides baseline data on compliance with the new Patients’ Rights
          Condition of Participation, and suggested several issues for further study. HCFA staff
          made similar comments to us in earlier discussion. We agree with the suggestion by
          SAMHSA and HCFA that more study is needed on the care and services provided to
          persons with mental illnesses. Our present study was one in a continuing series of studies,
          audits, and reviews on services to persons with mental illnesses. As we continue to
          analyze this subject in the future, we would expect to include coverage of some or all of
          the issues raised by SAMHSA and HCFA.

          Both HCFA and SAMHSA also suggested several technical changes to the report for
          clarification. We made the changes where the scope of our study and facts obtained
          would support them.

          We provide the full text of comments by both HCFA and SAMHSA in the Appendix.




Restraints and Seclusion: Policies for Psychiatric Hospitals   3                         OEI-04-99-00150
                                                 INTRODUCTION

PURPOSE

          To describe State policies for restraints and seclusion in psychiatric hospitals.

BACKGROUND

          According to the 1999 Surgeon General’s Report on Mental Health, over five million
          people experience severe mental illnesses each year. In 1998, Medicare and Medicaid paid
          almost $6 billion to provide mental health care to over 500,000 beneficiaries in psychiatric
          hospitals. That care is typically provided in two types of psychiatric hospitals:
          freestanding psychiatric hospitals and psychiatric units within acute care hospitals. Both
          types can be publicly owned or privately owned.

          For the purpose of this report, public psychiatric hospital refers to State owned
          freestanding psychiatric hospitals and State owned psychiatric units within acute care
          hospitals. Private psychiatric hospital refers to privately owned freestanding psychiatric
          hospitals and privately owned psychiatric units within acute care hospitals.

Restraints and Seclusion

          During hospitalization persons with mental illness may be placed in restraints or seclusion
          to prevent them from injuring themselves and others.

          Restraint generally refers to methods for restricting a person’s freedom of movement.
          Restraints can be chemical, physical, or mechanical. Chemical restraint refers to the use of
          drugs to control behavior or restrict a person’s freedom of movement. In such instances,
          the drugs are not considered a part of standard medical or psychiatric treatment for the
          patient. Physical restraint generally involves restricting a person’s movement by physical
          force. It is typically performed in an emergency to prevent a person from hurting
          themselves or others. Mechanical restraint generally refers to use of an external device,
          such as straps, belts, or cuffs to restrict a person’s freedom of movement.

          Seclusion is generally defined as involuntarily confining a person alone in a room from
          which the person is physically prevented from leaving.

Concern Over Use of Restraint and Seclusion

          The use of restraints and seclusion may be appropriate in some circumstances, but in
          others it may be inappropriate and abusive. Generally, the Health Care Financing
          Administration’s new Patients’ Rights Condition of Participation regulations provide for
          the use of restraints and seclusion as an exception rather than normal practice for behavior
          management. To illustrate, it can be appropriate in emergency situations, but only when
          less restrictive interventions have been determined to be ineffective to ensure

Restraints and Seclusion: Policies for Psychiatric Hospitals   4                              OEI-04-99-00150
          safety of the patient and others. On the other hand, the regulations show that restraints
          and seclusion are inappropriate when imposed as a means of coercion, discipline,
          convenience, or retaliation by staff.

          In recent years, reports of deaths and injuries resulting from inappropriate use of restraints
          and seclusion have raised serious concerns within the Congress, the Department of Health
          and Human Services, and States. For example, in September 1999, the General
          Accounting Office reported that 24 deaths associated with the use of restraints and
          seclusion occurred during fiscal year 1998. Previously, in October 1998, the Hartford
          Courant, a Connecticut newspaper, reported that 142 deaths resulted from inappropriate
          use of restraints in psychiatric facilities from 1988 through 1998 -- an 11 year period.

Oversight For Use of Restraints and Seclusion

          A variety of State and Federal agencies and private sources provide oversight for patient
          care provided by psychiatric hospitals.

          The Health Care Financing Administration (HCFA) has Federal oversight responsibility for
          the Medicare program. As such, HCFA establishes Federal requirements for psychiatric
          hospitals to participate in Medicare funded programs. The requirements are published as
          general and Special Conditions of Participation.

          HCFA’s new Patients’ Rights Condition of Participation became effective as part of the
          Medicare general Condition of Participation in August 1999. They place two standards on
          all hospitals using restraints and seclusion. One standard provides guidance for the use of
          restraints during acute medical and surgical care. The other provides guidance for using
          restraints and seclusion in emergency situations where a patient is violent or aggressive,
          and a danger to himself or others.

          State mental health agencies have front line oversight responsibility for psychiatric
          hospitals. Generally, State Departments of Mental Health1 have oversight responsibility
          for public psychiatric hospitals. State Licensure and Certification agencies2 generally have
          oversight responsibility for private psychiatric hospitals. The State agencies certify that
          both public and private psychiatric hospitals comply with HCFA’s general Condition of
          Participation, and applicable State laws and policies. The certification and licensure
          process authorizes psychiatric hospitals to participate in Medicare funded programs.

          By Federal statute, hospitals accredited by the Joint Commission on the Accreditation of
          Healthcare Organizations are deemed to have met Medicare’s general Condition of
          Participation. Of the 611 psychiatric hospitals that participate in the Medicare program,


          1
           We used a general, common title for various individual State agencies that have oversight responsibility for publicly
owned and operated psychiatric hospitals. The title for any specific State agency may vary from the common title we used.
Also, in some States the agency may have responsibility for both the publicly and privately owned psychiatric hospitals.

          2
           We chose a general, common title to represent the various individual State agencies that have oversight
responsibility for privately owned and operated psychiatric hospitals. The title for the agency in specific States could be
different. Also, in some States the agency may have responsibility for both publicly and privately owned psychiatric hospitals.

Restraints and Seclusion: Policies for Psychiatric Hospitals   5                                                OEI-04-99-00150
          almost 94 percent (572) were accredited by the Joint Commission in 1999. The Joint
          Commission surveys its accredited hospitals every 3 years, at a minimum, to ensure they
          continue to comply with established Joint Commission standards, including those for
          restraint and seclusion. We anticipate that the Joint Commission will revise its standards
          to take into consideration the new Patients’ Rights Condition of Participation.

          However, neither Joint Commission accreditation, nor State licensure and certification
          alone allow free standing psychiatric hospital participation in the Medicare program. Free
          standing psychiatric hospitals are also required to meet two Special Conditions of
          Participation -- hospital staffing and medical record documentation. HCFA contracts with
          psychiatric clinicians to periodically review hospitals for compliance with the two special
          conditions.

          Hospitals are required to document the use of restraints and seclusion in the patient’s
          medical record. When HCFA’s contracted clinicians find instances of restraint and
          seclusion use, they may initiate further investigation. However, the HCFA contractor
          surveys are only done about every 3 to 4 years.

          Likewise, the Substance Abuse and Mental Health Administration funds a network of
          State Protection and Advocacy (P&A) organizations that provide oversight for persons
          with mental illness who reside in psychiatric hospitals. State P&A organizations monitor
          and investigate incidents of inappropriate use of restraint and seclusion.

METHODOLOGY

          This is one in a series of planned inspections on the use, control, and impact of the use of
          restraints and seclusion in psychiatric hospitals. In this report, we ascertained what
          policies States had established for using restraints and seclusion in public and private
          psychiatric hospitals. We also compared State policies to the Health Care Financing
          Administration’s new Patients’ Rights Condition of Participation regulations. Subsequent
          reports will focus on reporting systems for restraint and seclusion use, and for patient
          abuse and death in psychiatric hospitals.

Data Collection

          Our findings are based largely on self-reported information provided by State Mental
          Health and Licensing agencies, and Protection and Advocacy organizations. Using a
          standardized written data collection instrument, we surveyed agencies in all 50 States and
          the District of Columbia that provide policy guidance and oversight for public and private
          psychiatric hospitals. Likewise, we surveyed Protection and Advocacy organizations in
          each of the 50 States and the District of Columbia.

          We received responses from 43 State Mental Health Departments that provide oversight
          for State owned psychiatric hospitals -- a response rate of 84 percent. We received 36
          responses from State Licensing and Certification agencies that provide oversight for
          privately owned psychiatric hospitals -- a response rate of 71 percent. In some States,
          one agency provided responses for both State and privately owned hospitals. Finally, 44

Restraints and Seclusion: Policies for Psychiatric Hospitals   6                          OEI-04-99-00150
          State Protection and Advocacy organizations responded to our survey -- a response rate
          of 86 percent. The Protection and Advocacy organizations responses encompassed both
          State and privately owned psychiatric hospitals.

          We received survey responses from July through September 1999. This time period
          preceded and overlapped the issuance of the Health Care Financing Administration’s final
          version of the new Patients’ Rights Condition of Participation regulations.

          Therefore, the new standards had not been fully implemented by States at the time of our
          inspection. However, where possible we compared existing State policies to the new
          Patients’ Rights Condition of Participation regulations. As a result, our study provides an
          early snapshot of State policies at the time the new Patients’ Rights Condition of
          Participation became effective. This snapshot provides a baseline for measuring progress
          in implementing the new requirements, and insight into policies that need special attention
          in the early stages of implementation.

          We did not audit the self-reported information. However, we supplemented and
          corroborated it through interviews with officials and staff in a variety of Federal and State
          agencies, advocacy and trade organizations, and psychiatric hospitals. To illustrate, we
          interviewed officials and staff from the following organizations:

                     <          The Health Care Financing Administration,

                     <          Substance Abuse and Mental Health Services Administration,

                     <          State Departments of Mental Health,

                     <          State Licensing and Certification agencies,

                     <          State Protection and Advocacy organizations,

                     <          National Association of Protection and Advocacy Systems,

                     <          National Association of State Mental Health Program Directors,

                     <          National Alliance for the Mentally Ill, and 

                     <          Public and private psychiatric hospitals. 


          Additionally, we conducted document and literature searches. We analyzed State laws,
          regulations, and policies on the use of restraints and seclusion. We also reviewed
          professional trade journals and publications, and audit and evaluation reports on the use of
          restraints and seclusion in psychiatric hospitals.

Data Analysis

          We integrated and synthesized data from various sources, identifying common
          characteristics and major differences. Additionally, we compared the policies in public and
          private psychiatric hospitals.
                                     ____    ____     ____     ____

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Restraints and Seclusion: Policies for Psychiatric Hospitals   7                             OEI-04-99-00150
                                                         FINDINGS

Initiating Restraints and Seclusion
          HCFA’s New Patients’ Rights Condition of Participation

          HCFA’s new Patients’ Rights Condition of Participation requires all hospital staff who
          have direct patient contact to have on-going education and training in the proper use of
          restraint and seclusion application and techniques. The regulation also requires education
          and training in alternative methods for avoiding the use of restraint and seclusion.

          State Policies

          State policies generally specify who can initiate a restraint or seclusion. Most State
          policies for both public and private psychiatric hospitals required a nurse or physician to
          initiate a restraint or seclusion. Over 74 percent of the States restricted authority to a
          nurse or doctor for initiating a restraint or seclusion in public psychiatric hospitals, and 73
          percent have the same restriction for private hospitals.

                                                            Table 1
                                              Initiating Restraints and Seclusion
              Who Can Initiate                State Policies For Public             State Policies For
                                                     Hospitals                      Private Hospitals
             Nurse or Physician                 29              74.4%               19            73.1%
             Hospital Policy                     8              20.5%                7            26.9%
             Unknown                             2              5.1%                 0            0.0%
             Subtotal                           39             100.0%               26           100.0%
             No Answer                           4              9.3%                10            27.8%
             Total                              43                                  36

          As Table 1 shows, 21 percent of the States allowed each public psychiatric hospital to
          establish who was authorized to restrain or seclude a patient. Likewise, 27 percent of the
          States allowed private psychiatric hospitals to set their own policy. In such States, the
          policies did not prescribe who was authorized to restrain or seclude a patient. These
          States allowed hospitals to use “any trained,” “authorized,” or “qualified staff.” One State
          policy for private psychiatric hospitals allowed “anyone” to restrain or seclude a patient in
          an emergency situation.




Restraints and Seclusion: Policies for Psychiatric Hospitals    8                                        OEI-04-99-00150
          The Protection and Advocacy staff we interviewed generally expressed concern about
          such policies. They expressed a belief that allowing someone other than a physician or
          nurse to initiate a restraint or seclusion increased the risk that it may be unnecessary or
          inappropriate. Mental health advocates told us that one of the most dangerous moments
          for restrained patients is during the “take-down.” A take-down refers to when a patient is
          forced down and immobilized for application of a restraint. It is during this quick, often
          frantic, period that a patient can sustain serious injury and even death. The Hartford
          Courant reported that 23 of 142 restraint-related deaths occurred while patients were
          being restrained in face-down floor holds.

          Hospital officials and staff we interviewed told us, however, that in an emergency, the
          patient and others could be in danger. Therefore, they said it is often necessary for the
          closest employee to restrain a patient until other trained staff arrive.


Physician Orders
          HCFA’s New Patients’ Rights Condition of Participation

          HCFA’s new Patients’ Rights Condition of Participation requires that a physician or other
          licensed independent practitioner “see and evaluate” the need for restraint and seclusion
          within 1 hour after the initiation of this intervention.

          State Policies

          As Table 2 shows, the policy in 27 percent of the States required that public psychiatric
          hospitals “immediately” obtain a physician order when a patient is restrained or secluded.
          Only 16 percent of the States had a similar requirement for private hospitals. Seventy
          eight percent of the States required public psychiatric hospitals to obtain physician orders
          within one hour of initiating a restraint or seclusion. For private psychiatric hospitals, 60
          percent of States had the same one hour requirement.

          However, only 2 State policies required their public hospitals to meet the “see and
          evaluate” requirement. None did so for private hospitals. The other States allowed
          physician orders for restraints and seclusion to be given over the telephone.

          Also, 8 percent of the States allowed public hospitals in excess of one hour to obtain a
          physician order after a patient had been restrained or secluded. In contrast, 16 percent of
          the States allowed in excess of one hour for private psychiatric hospitals to obtain a
          physician order after a patient had been restrained or secluded. Of the States that allowed
          over one hour, one allowed public psychiatric hospitals, and two allowed private
          psychiatric hospitals, more than 24 hours to obtain the required physician order.




Restraints and Seclusion: Policies for Psychiatric Hospitals   9                           OEI-04-99-00150
                                                    Table 2
                                Time Requirements For Obtaining Physician Orders
           Time Period Options                     State Policies For Public   State Policies For Private
                                                          Hospitals                    Hospitals
             Immediately                               10        27.0%           4           16.0%
             Within 15 minutes                          2           5.4%         1            4.0%
             16-30 minutes                              4        10.8%           1            4.0%
             31-60 minutes                             13        35.1%           9           36.0%
             1 to 8 hrs                                 2           5.4%         2            8.0%
             Over 8 hrs                                 1           2.7%         2            8.0%
             Hospital Policy                            2           5.4%         5           20.0%
             Not specified                              3           8.1%         1            4.0%
             Subtotal                                  37        100.0%         25          100.0%
             No Answer                                  6           14.0%       11           30.6%
             Total                                     43                       36

          Views of Provider and Advocacy Groups

          In their response to HCFA’s new Patients’ Rights Condition of Participation interim final
          rule, physician and hospital groups, such as the American Hospital Association, the
          National Association of Psychiatric Health Systems, and the American Psychiatric
          Association, expressed concern about the new one hour “see and evaluate” requirement.
          The groups expressed concern that requiring a face-to-face evaluation will increase costs
          and may be difficult for rural and private psychiatric hospitals to implement. The groups
          also believe that the requirement inappropriately dictates medical practice.

          The mental health advocates from the State Protection and Advocacy system and National
          Alliance for the Mentally Ill stressed the importance of a face-to-face physician evaluation
          before, or at a minimum immediately after, placing a patient in restraint or seclusion.
          Requiring a physician to “see and evaluate” a patient before issuing an order, or
          immediately after restraint or seclusion, allows the physician to determine if the restraints
          or seclusion is warranted, or if another form of intervention is appropriate. Further, in
          situations where a physician determines that restraint or seclusion is appropriate, the
          physician can then determine that it is properly applied.

          Another reason the advocates gave for requiring a physician to immediately evaluate a
          patient that has been restrained or secluded is that it allowed the physician to quickly
          provide needed medical treatment for any injuries sustained during the restraint procedure.
          The Hartford Courant series of articles emphasized the importance of early medical
          attention to any injuries incurred during a restraint process. For example, one article
          described a situation where an 11-year-old boy died as a result of a crushed chest
          sustained during the restraint process. Hospital staff who restrained the boy ignored his
          complaints of injury. The boy was dead before a physician ever examined him.


Restraints and Seclusion: Policies for Psychiatric Hospitals   10                                     OEI-04-99-00150
Time Limits
          HCFA’s New Patients’ Rights Condition of Participation

          HCFA’s new Patients’ Rights Condition of Participation limits the duration of each
          written restraint or seclusion order to 4 hours for adults, 2 hours for adolescents age 9 to
          17, and 1 hour for children under age nine. Original orders may be renewed for up to a
          total of 24 hours before requiring a second face-to-face physician or licensed independent
          practitioner evaluation.

          State Policies

          The State policies in 43 percent of the States limited restraint and seclusion orders in
          public psychiatric hospitals to between 1 and 4 hours in duration. Conversely, only 9
          percent of the States had a similar limit for restraint and seclusion orders in private
          psychiatric hospitals. Table 3 shows State policies for time limits on restraints and
          seclusion for both public and private psychiatric hospitals.

          As Table 3 shows, 11 percent of the States did not establish physician order time limits for
          public psychiatric hospitals. Almost 35 percent of the States did not establish physician
          order time limits for private psychiatric hospitals. In such instances, the hospitals
          established their own policies.


                                                   Table 3
                        Requirements on the Duration of Restraint and Seclusion Orders
                 Time Limits               State Policies For Public    State Policies For Private
                                                  Hospitals                     Hospitals
              1-4 hours                       15               42.9%      2               8.7%
              5-14 hours                       4               11.4%      6             26.1%
              24 hours                         8               22.9%      5             21.7%
              Hospital Policy                  4               11.4%      8             34.8%
              Unknown                          4               11.4%      2               8.7%
              Subtotal                        35               100.0%    23            100.0%
              No Answer                        8               18.6%     13              36.1%
              Total                           43                         36


          Seven of the 15 States told us their State policy varied between 1and 4 hours in duration
          for physician orders in public psychiatric hospitals. The time limits varied depending on a
          patient’s age. All seven State policies were identical to the new Condition of
          Participation: 4 hours for adults, 2 hours for adolescents 9 to 17 years of age, and 1 hour
          for children under 9 years of age. None of the State policies for private hospitals made
          this distinction.

Restraints and Seclusion: Policies for Psychiatric Hospitals      11                             OEI-04-99-00150
          The mental health professionals we interviewed agreed that restraint and seclusion
          physician orders should be time limited. They said patients should be frequently evaluated
          and released as soon as possible. The importance of this guidance was emphasized by the
          Hartford Courant article that related a death to a lengthy restraint. In that instance, a 38
          year-old man died from medical complications after being restrained to a bed for 18 hours.
          Such adverse outcomes highlight the importance of frequently evaluating patients who are
          restrained or secluded. A short time limit on restraint and seclusion physician orders
          requires frequent oversight and evaluation of patients.


Patient Monitoring
          HCFA’s New Patients’ Rights Condition of Participation

          HCFA’s new Patients’ Rights Condition of Participation requires continual (close,
          recurring) assessment, monitoring, and reevaluation of patients that are either restrained or
          secluded. However, for persons that are both restrained and secluded the Condition of
          Participation requires continuous (constant) monitoring face-to-face by an assigned staff
          or by staff using both audio and video equipment.

          State Policies

          As Table 4 shows, eighty five percent of public psychiatric hospitals, and 48 percent of
          private psychiatric hospitals meet the continual (close, recurring) standard of the new
          Patients’ Rights Condition of Participation by requiring patient monitoring every 15
          minutes or less. Four States had a higher standard of monitoring than the new Patients’
          Rights Condition of Participation by requiring continuous (constant) monitoring for
          patients in public psychiatric hospitals. One State did so for private psychiatric hospitals.

          One State allowed patient monitoring in both public and private psychiatric hospitals on
          two hour intervals. In addition, one State had no specific policy on frequency of
          monitoring for restrained and secluded patients in private psychiatric hospitals.




Restraints and Seclusion: Policies for Psychiatric Hospitals   12                          OEI-04-99-00150
                                                        Table 4
                                       Requirements for Frequency of Monitoring
                                              State Policies For Public   State Policies For Private
                  Time Periods                       Hospitals                    Hospital
              Continuous                             4          10.0%       1              3.7%
              15 minutes                            30          75.0%      12            44.4%
              30 minutes                             0          0.0%        2              7.4%
              1 hour                                 2          5.0%        2              7.4%
              2 hours                                1          2.5%        1              3.7%
              Unknown                                2          5.0%        2              7.4%
              Hospital Policy                        1          2.5%        6            22.2%
              No Policy                              0          0.0%        1              3.7%
              Subtotal                              40         100.0%      27            100.0%
              No Answer                              3          7.0%        9             25.0%
              Total                                 43                     36

          The type and frequency of monitoring is important for the safety of persons in restraints or
          seclusion. To illustrate, improperly applied restraints that are harmful to patients may go
          undetected unless patients are adequately monitored. One such example was related to us
          by a State Protection and Advocacy organization. They described an incident where a
          nurses’ aide restrained a 45 year-old woman to her bed at about 8:30 p.m. without a
          physician’s order. The aide had not been trained in applying restraints. The woman was
          left restrained and unchecked overnight. Almost 10 hours later, she was found dead on
          the floor with the restraints bunched around her neck and chest.




Restraints and Seclusion: Policies for Psychiatric Hospitals   13                                 OEI-04-99-00150
                                            RECOMMENDATION

Many State policies already met some of the new Patients’ Rights Condition of Participation
standards. However, other State policies for both public and private psychiatric hospitals did not.
State policies for use of restraints and seclusion in private psychiatric hospitals more frequently
fell short of the new standards.

          Therefore, we recommend that HCFA work aggressively with States and accreditation
          organizations to quickly raise psychiatric hospital compliance with the new Patients’
          Rights Condition of Participation where necessary. Particular attention should be
          given to policies for private psychiatric hospitals.




Restraints and Seclusion: Policies for Psychiatric Hospitals   14                      OEI-04-99-00150
                                          AGENCY COMMENTS

Both the Health Care Financing Administration and the Substance Abuse and Mental Health
Services Administration commented on our draft report. Both concurred with our
recommendation.

The Health Care Financing Administration has already initiated several activities that we believe
will increase compliance with the new Patients’ Rights Condition of Participation. For example,
HCFA initiated efforts to educate key players such as State agencies, providers, accrediting
organizations, and protection and advocacy groups on expected changes in treatment policies and
procedures. Further, HCFA has initiated a training program for State and HCFA regional
surveyors on the new Patients’ Rights Condition of Participation.

The Substance Abuse and Mental Health Services Administration noted that our study is
beneficial in that it provides baseline data on compliance with the new Patients’ Rights Condition
of Participation, and suggested several issues for further study. HCFA staff made similar
comments to us in earlier discussion. We agree with the suggestion by SAMHSA and HCFA that
more study is needed on the care and services provided to persons with mental illnesses. Our
present study was one in a continuing series of studies, audits, and reviews on services to persons
with mental illnesses. As we continue to analyze this subject in the future, we would expect to
include coverage of some or all of the issues raised by SAMHSA and HCFA.
Both HCFA and SAMHSA also suggested several technical changes to the report for
clarification. We made the changes where the scope of our study and facts obtained would
support them.

We provide the full text of comments by both HCFA and SAMHSA in the Appendix.




Restraints and Seclusion: Policies for Psychiatric Hospitals   15                     OEI-04-99-00150
                                                                      APPENDIX




                                                   Agency Comments

Health Care Financing Administration (HCFA)

Substance Abuse and Mental Health Services Administration (SAMHSA)





.





Restraints and Seclusion: Policies for Psychiatric Hospitals   16       OEI-04-99-00150
Restraints and Seclusion: Policies for Psychiatric Hospitals   17   OEI-04-99-00150
Restraints and Seclusion: Policies for Psychiatric Hospitals   18   OEI-04-99-00150
Page - 3 June Gibbs Brown


Finally, HCFA continues to search for ways to keep SAs and accreditation organization current with our
expectations. We are exploring the use of a web site, conference calls, and satellite broadcasts to better
reach SAs and accreditation organizations.




Restraints and Seclusion: Policies for Psychiatric Hospitals   19                               OEI-04-99-00150
Restraints and Seclusion: Policies for Psychiatric Hospitals   20   OEI-04-99-00150
Restraints and Seclusion: Policies for Psychiatric Hospitals   21   OEI-04-99-00150
